Memorandum from the Office of the Inspector General



August 16, 2007

John J. Bradley, OCP 2A-NST

FINAL REPORT – INSPECTION 2007-512I – REVIEW OF TENNESSEE VALLEY
AUTHORITY'S ECONOMIC DEVELOPMENT LOAN PROGRAM



Attached is the subject final report for your review and action. Your staff’s informal
comments to the draft report have been incorporated. Please advise us of your planned
actions in response to our findings within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Richard C. Underwood, Project Manager, at
(423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff
during this review.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

RCU:BKA
Attachment
cc (Attachment):
     Amy H. Bunton, OCP 2A-NST
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2007-512I
                    Tennessee Valley Authority
                    Office of the Inspector General


Inspection Report



REVIEW OF
TVA'S ECONOMIC
DEVELOPMENT LOAN
PROGRAM



Project Manager                           2007-512I
Rick C. Underwood                    August 16, 2007
Office of the Inspector General                                                    Audit Report


TABLE OF CONTENTS
EXECUTIVE SUMMARY ............................................................... i

BACKGROUND .............................................................................. 1

OBJECTIVE, SCOPE, AND METHODOLOGY ....................... 3

FINDINGS AND RECOMMENDATIONS .................................. 5

   ED MANAGEMENT HAS NOT FULLY IMPLEMENTED AGREED-
   UPON MANAGEMENT ACTIONS AS NOTED IN
   AUDIT 2004-011F ........................................................................... 5

   ITEMS OF NONCOMPLIANCE WERE IDENTIFIED IN LOAN
   FILES REVIEWED .......................................................................... 6

   LOANS ARE NOT WRITTEN OFF IN A TIMELY MANNER AS
   REQUIRED BY GAAP .................................................................... 7

   LOAN APPROVALS FOR APPLICATIONS NOT IN COMPLIANCE
   WITH GUIDELINES MAY POTENTIALLY CONTRIBUTE TO
   DEFAULTS ................................................................................... 8

   OTHER OPPORTUNITIES FOR IMPROVEMENT ......................... 9

   RECOMMENDATIONS................................................................. 11




Inspection 2007-512I
Office of the Inspector General                                Audit Report



EXECUTIVE SUMMARY
Economic development (ED), along with energy production and
environmental stewardship, is one of the integrated purposes of TVA.
TVA’s ED goals are to increase capital investment and attract and
retain better-paying jobs for the TVA service area.

To aid in achieving these goals, ED currently has four types of loan
programs: (1) Special Opportunity County (SOC) - established in
1981 to stimulate economic development and create jobs in the
region’s poorest, least developed rural areas; (2) Economic
Development Loan Fund (EDLF) - established in 1995 to promote
economic expansion, encourage job creation, and foster the increased
sale of electricity by TVA and its power distributors; (3) Minority
Business Development Loan Fund (MBDLF) - established in 1991 as
the Valley Investment Fund to promote growth and development of
socially and economically disadvantaged businesses in the region;
and (4) Business Incubator Tenant Loan Fund (Incubator) -
established in 1997 to help young businesses meet their short-term
needs for cash flow and operating capital.

Our objectives during this review were to (1) determine if TVA’s ED
loans are being executed and administered in accordance with TVA
policies and procedures and (2) assess loan defaults to identify any
actions taken in approving the loans which could have contributed to
the defaults. In summary, we found:

•   Management has not fully implemented procedures governing the
    loan administrative process, after closing, as agreed upon in
    response to Audit 2004-011F.
•   Noncompliances with ED loan guidelines were identified in 13 of
    42 loan files reviewed.
•   Uncollectible ED loans were not written off in a timely manner as
    required by Generally Accepted Accounting Principles.
•   Explanations provided by ED management for 10 of the 13 loan
    files where noncompliances were noted indicated that the Loan
    Approval Committee made exceptions and approved loan
    applications even though they were not in compliance with
    program guidelines. Of these 10 loans, 5 were identified as being
    in default status indicating that departure from guidelines could
    potentially contribute to loan defaults. Other than that, our review
    noted no specific trends in the loan files that appeared to
    contribute to loan defaults.



Inspection 2007-512I                                                Page i
Office of the Inspector General                                Audit Report



In addition, at ED’s request, we reviewed ED’s draft Loan Manual and
identified improvement opportunities.

We recommended the Executive Vice President, Customer Resources
(1) complete development and implementation of loan procedure
guidelines; (2) ensure compliance with guidelines or require
documentation of deviations including analyses, justifications, and
other supporting information; (3) submit uncollectible loans for write-off
in a timely manner; and (4) consider our suggestions to improve the
draft Loan Manual.

ED management provided informal comments on a draft of this report
and generally agreed with our findings. Where appropriate, we
clarified the report and/or included management’s comments. ED
management also generally agreed with our recommendations and
noted that since conclusion of our fieldwork, the Loan Manual has
been completed and was approved by the Loan Committee on
August 13, 2007.

Management deemed that one of the loans reviewed and found to
have items of noncompliance should not have been included in our
review because it was not considered by the Loan Committee and
was not a part of the four loan types evaluated. ED management also
disagreed with our identification of another loan as noncompliant.
They stated that the guidelines, by which we found the loan to be
noncompliant, had been changed in the late 1990s with advice from
the Office of the General Counsel.




Inspection 2007-512I                                                Page ii
Office of the Inspector General                                                   Audit Report



BACKGROUND
Economic development (ED), along with energy production and
environmental stewardship, is one of the integrated purposes of TVA.
The goals of ED are to increase capital investment and attract and
retain better-paying jobs for the TVA service area. ED’s website notes
that “TVA Economic Development offers a number of financing
services and options to help new and existing companies with the
financial resources they need to locate or expand in the Tennessee
Valley.” ED currently has four types of loan programs to assist in
accomplishing their goals: (1) Special Opportunity County (SOC) -
established in 1981 to stimulate economic development and create
jobs in the region’s poorest, least developed rural areas;
(2) Economic Development Loan Fund (EDLF) - established in 1995
to promote economic expansion, encourage job creation, and foster
the increased sale of electricity by TVA and its power distributors;
(3) Minority Business Development Loan Fund (MBDLF) - established
in 1991 as the Valley Investment Fund to promote growth and
development of socially and economically disadvantaged businesses
in the region; and (4) Business Incubator Tenant Loan Fund
(Incubator) - established in 1997 to help young businesses meet their
short-term needs for cash flow and operating capital.1

For fiscal years (FY) 1998 through 2006, on average there were
42 loans originated per year totaling about $15.68 million as follows.

•     Twenty-one EDLF loans originated per year totaling $12.6 million.
•     Five MBDLF loans originated per year totaling $1.3 million.
•     Seven SOC loans originated per year totaling $1.6 million.
•     Nine Incubator loans originated per year totaling $180,000.

As of February 28, 2007, ED documentation showed 223 loans were
outstanding with a balance of about $64.8 million, as shown in
Table 1. According to ED management, “since the EDLF program
was originated in 1995, Economic Development has originated over
400 loans totaling slightly over $200 million in loans (EDLF, MBDLF,
and SOC). These loans brought significant benefit to the Valley
economy, as they resulted in over 59,000 announced jobs and over
$3.9 billion in leveraged capital investment. If loan write-offs during
this 12-year period had been in accordance with generally accepted
accounting standards from 1995 through 2007, loan losses would total
approximately $8 million. This is an overall loss rate of approximately
4 percent, and that number could decline as recoveries are made.”
1
    The Incubator is a revolving fund which was capitalized at $500,000, and the maximum
    loan amount that can be made to an Incubator tenant is $25,000 for a term of one year.
Inspection 2007-512I                                                                   Page 1
Office of the Inspector General                                                   Audit Report




                              Econom ic Developm ent Loans
                                 as of February 28, 2007



                                  41 loans for
                                  $7.8 million

               16 loans for
                  $236k
                                                                 123 loans for
                43 loans for $8                                   $48.8 million
                     million




                              EDLF     MBDLF     Incubator    SOC

                                                                                     Table 1

In addition, the allowance for doubtful account (AFDA) reserve
balance was about $7 million, while the collection of 21 loans2 with
balances totaling about $8.5 million3 has been determined doubtful.
Specifically, allocations to the AFDA have totaled about $9.1 million
and loans totaling $2.1 million have been written off. About
$2.7 million of the $7 million AFDA reserve represents specific
allocations for three doubtful Valley Management, Inc. (VMI) loans.

On November 13, 1991, TVA entered into a cooperative agreement
(Contract TV-86208V) with VMI to manage and invest the program
funds. In part, the agreement provided for (1) VMI to develop
guidelines, subject to TVA’s approval, for administering the program
and (2) the establishment of an Investment Committee to approve
investments. However, when questioned regarding loan files for loans
initiated by VMI still shown as receivable on the financial statements
or identified as being in default status, ED stated it had limited control
over VMI actions during that time period. Effective January 26, 1998,
the agreement with VMI was terminated.




2
    This includes four VMI loans totaling $3.1 million.
3
    According to ED management, loans totaling approximately $1.4 million are candidates for
    restructuring.
Inspection 2007-512I                                                                   Page 2
Office of the Inspector General                                  Audit Report



OBJECTIVE, SCOPE, AND METHODOLOGY
Our objectives during this review were to (1) determine if TVA’s ED
loans are being executed and administered in accordance with TVA
policies and procedures and (2) assess loan defaults to identify any
actions taken in approving the loans which could have contributed to
the defaults. To achieve our objectives, we:

-   Interviewed ED personnel to determine the loan process, loan
    guidelines, and policies and procedures currently in place for
    approval of loans.
-   Reviewed the ED criteria for each loan type to determine the
    approval guidelines and required qualifications for all loans.
-   Reviewed current loans outstanding in each program type to
    determine (1) the number of loans, (2) the amount approved for
    each loan, and (3) the current balance outstanding for each loan.
-   Reviewed loan defaults, as well as any reasons for default, to
    identify any actions taken in approving the loans which could have
    contributed to the default.
-   Selected a judgmental sample of 47 loans for testing against
    identified criteria. These loans had the following characteristics:

                   Loan           Number     Loan Origination
                   Type           of Loans      Amounts
                 EDLF                 10           $9,465,000
                 MBDLF                4              $1,206,00
                 Incubator            2                $50,000
                 SOC                  8            $2,145,000
                 Default              23          $12,327,010

                 Totals             47            $25,193,010

    We determined that 5 of the selected default loans, representing
    about $3.2 million, were originated by VMI and were addressed in
    a previous OIG Audit Report 98-008P. Therefore, we excluded
    these loans from our compliance testing. We reviewed 42 loan
    files and other supporting documentation to assess compliance
    with the following investment guidelines.




Inspection 2007-512I                                                  Page 3
Office of the Inspector General                                            Audit Report




                       Criteria Used to Review EDLF Loans
The loan amount did not exceed $2,000,000.
Loan made for use within TVA power service area.
Loan made to a local government, power distributors, established economic
development organizations, or private sector companies with cooperation by a local
economic development entity.

Loan used to purchase fixed assets, spec building, industrial park—not to be used
for working capital.
Three to one leveraging.
One job created or retained for every $5,000 invested by TVA.
Loan term not more than seven years for equipment, ten years for real estate.
Loan at below market rate.



                       Criteria Used to Review MBDLF Loans
The loan amount did not exceed $500,000.
Loan within TVA region.
Direct loans for fixed assets, other arrangements for working capital, contract
financing, loan guarantees, and participatory loans.
At least 51 percent ownership and control by one or more qualified member(s) of a
socially and economically disadvantaged group.
One to one leveraging.
One job created or retained for every $20,000 invested by TVA.
Loan term not more than seven years for equipment, ten years for real estate.
Loan at below market rate.
Loan recipient must demonstrate economic, social, or actual disadvantage.



                        Criteria Used to Review SOC Loans
The loan amount did not exceed $500,000.
Loan was made to borrowers located in distressed rural counties, as defined by
TVA.
Loans to be used for buildings, plant equipment, infrastructure, or real estate.
The loan was funded by appropriations.
Three to one leveraging.
One job created or retained for every $10,000 invested by TVA.
Loan term not more than seven years for equipment, ten years for real estate.
Loan at below market rate.
Loan secured with fixed assets.
Recent appraisal of collateral which indicates fair market value.
TVA funding does not exceed 25 percent of project cost (if industrial park or building,
not to exceed 50 percent).




Inspection 2007-512I                                                            Page 4
Office of the Inspector General                                        Audit Report




                    Criteria Used to Review Incubator Loans
Loan amount does not exceed $25,000.
Loan term does not exceed one year.
Loan rate equals prime minus 2 percent.
Loans to be used for fixed assets or working capital.
Loan request supported by purchase orders, invoices, or accounts receivable.
Tenant has no more than one loan outstanding.
Incubator manager recommends tenant for the loan.
Incubator receives $100 origination fee.
TVA lends to incubator, not tenant.

This inspection was conducted in accordance with the “Quality
Standards for Inspections.”


FINDINGS AND RECOMMENDATIONS
Our review of selected loans found (1) management has not fully
implemented formal procedures, as agreed upon in a previous audit;
(2) noncompliances with ED loan guidelines in 13 of 42 loan files
reviewed; (3) uncollectible ED loans were not written off in a timely
manner as required by Generally Accepted Accounting Principles
(GAAP); and (4) explanations provided by ED management for 10 of
the 13 loan files where noncompliances were noted indicated that the
Loan Approval Committee made exceptions and approved loan
applications even though they were not in compliance with program
guidelines. Of these 10 loans, 5 were identified as being in default
status indicating that departure from guidelines could potentially
contribute to loan defaults. Other than that, our review noted no
specific trends in the loan files that appeared to contribute to loan
defaults. In addition, we reviewed ED’s draft Loan Manual and
identified improvement opportunities.

ED MANAGEMENT HAS NOT FULLY IMPLEMENTED
AGREED-UPON MANAGEMENT ACTIONS AS NOTED IN
AUDIT 2004-011F
We recommended in Audit 2004-011F that ED develop procedures
governing the loan administrative process after closing. ED
management agreed and stated that the procedures governing the
loan administration process would be completed within the first six
months of FY 2005. In addition, a concise flowchart would be
developed to show all parties the documentation and closing process.
However, as of April 6, 2007, the process had not been formally
documented and approved by senior ED management. ED
management did provide us with a draft Loan Manual.

Inspection 2007-512I                                                           Page 5
Office of the Inspector General                                 Audit Report



In response to this finding, ED management stated that, “a significant
amount of time was invested in dissecting the loan process through ‘lean
office’ exercises. Every step of the loan process was diagrammed and
analyzed and significant changes resulted from that exercise. The loan
manual reflects the results of that exercise but does not show all of the
analysis that led to those results. So the loan process has been well
documented, though formal adoption has been slower due to significant
process improvements and reductions in personnel.” They also stated
that the draft loan manual had been approved by the Loan Committee on
August 13, 2007.

ITEMS OF NONCOMPLIANCE WERE IDENTIFIED IN
LOAN FILES REVIEWED

We found items of noncompliance with identified criteria in 13 of the
42 loan files reviewed. To identify criteria to use in our testing of loan
files, we reviewed previous audits and information on the ED website.
Through these reviews, we identified guidelines used for approval of
loan applications made through the ED loan program. We noted that
there are different guidelines for each of the four different types of
loans under the program. The criteria used in our analyses were
communicated to ED management prior to our testing.

Our review included 10 EDLF, 4 MBDLF, 8 SOC, and 2 Incubator
loans that were judgmentally selected. We also reviewed 18 loans ED
deemed in default status. The defaulted loans represented 12 EDLF
loans and 6 MBDLF loans. Specific results pertaining to our review of
the EDLF, MBDLF, and SOC loans are documented in appendices A,
B, and C. Some of the noncompliances identified included loans that
(1) were used for purposes outside of the loan criteria, (2) did not
meet job creation or retention standards, (3) did not meet leveraging
or total project cost provisions, and (4) exceeded program amount
guidelines. In addition, 10 of the 13 loans were approved even though
they did not meet guidelines, as discussed later in this report. Our
review of the 2 selected Incubator loans identified no noncompliances.

In response to this finding, ED management noted that:

•   One of these 13 was not considered by the Loan Committee and
    was not a part of any of the four loan types evaluated in this
    review.
•   In the case of one entity, a strong argument can be made that
    funding plant restart is within the spirit of the EDLF guidelines.
    ED, in fact, had been communicating that permanent working
    capital is an allowable use of funds if secured with fixed assets.


Inspection 2007-512I                                                 Page 6
Office of the Inspector General                                 Audit Report



•   The job creation or retention guideline of one job for every $5,000
    invested by TVA was in effect from March 1995 until December
    2005. As a result, 1 of the loans identified as not meeting job
    creation or retention standards met revised guidelines in effect at
    time of approval.
•   One of the loans was in compliance since ED management
    decided in the late 1990s, based on advice from the Office of the
    General Counsel (OGC), to lend directly to companies without
    requiring a third-party “cooperator.”

In summary, it appears that loan approvals and administration have
been based on factors other than approved guidelines. ED
management was unable to provide us with any documented or
approved changes made to the guidelines we used for our testing. In
addition, our review of loan files noted that documentation of reasons
decisions are made is lacking.

LOANS ARE NOT WRITTEN OFF IN A TIMELY MANNER
AS REQUIRED BY GAAP
While we recommended in Audit 2004-011F that ED write off loans
that are uncollectible, we found loans are not being written off in a
timely manner as required by GAAP. Specifically, ED management
provided documentation indicating that they had made specific
reserves for 10 loans in the Allowance for Doubtful Accounts (AFDA)
in the amount of about $4.6 million. Reserves for all 10 of these loans
were made in April 1999 or earlier. Of these 10 loans, 3 with
combined balances of about $2.7 million are still included in the
balance of Loans & Other Long-Term Receivables on TVA’s financial
statements. These 3 loans were all addressed in Audit Report
98-000P.

•   One loan for $1.35 million dollars was identified uncollectible at
    that time.
•   A second with a remaining balance of $855,306 as of October 31,
    1997, was identified as having considerable uncertainty as to the
    collectibility of the loan if certain negotiations the company was in
    were unsuccessful. This loan was still shown on TVA’s financial
    statements as a receivable for $855,306 as of January 2007.
•   The third loan with an outstanding balance of $498,090 as of
    October 31, 1997, was identified as being collectible. However, in
    April 1999 a specific reserve was made for a remaining balance of
    $491,830, and that amount still appeared on the financial
    statements as a receivable as of January 2007.


Inspection 2007-512I                                                 Page 7
Office of the Inspector General                                                    Audit Report



All three of these loans appear to have been presented to the OGC for
write-off. In these cases, the OGC advised the loans could not be
viewed as legally uncollectible. Authoritative accounting guidance
does not address the legal collectibility of loans, but rather requires
that credit losses for loans and trade receivables (which may be for all
or part of a particular loan or trade receivable) should be deducted
from the allowance. The related loan or trade receivable balance
should be charged off in the period in which the loans or trade
receivables are deemed uncollectible. Recoveries of loans and trade
receivables previously charged off should be recorded when
received.4

ED loan schedules also showed several other loans which have been
deemed as uncollectible and in default status where no payment has
been received for several years.

Management generally agreed that loans should be written off in a
timelier manner.

LOAN APPROVALS FOR APPLICATIONS NOT IN
COMPLIANCE WITH GUIDELINES MAY POTENTIALLY
CONTRIBUTE TO DEFAULTS
Of the 13 noncompliant loans identified in the 42 loans we reviewed,
we identified 10 where ED management provided explanations
indicating that the Loan Committee had made exceptions to program
guidelines in these cases. ED management provided the following in
their response to our identified instances of noncompliance with the
identified loan approval guidelines:

          TVA Economic Development’s loan program
          guidelines are intended to provide a common
          framework for decision-making and are not
          intended to be absolute measures for deciding
          loan size. Job creation and leveraging guidelines
          are intended to ensure that projects have an
          economic development purpose and are intended
          to help determine a ballpark loan amount before
          substantial time and effort are put into a loan
          request. As a general rule, projects should meet
          or be relatively close to meeting guidelines, but
          overriding circumstances may influence the Loan
          Committee to approve less or more than would be
          awarded under a strict interpretation of the
4
    Statement of Position 01-6, Accounting by Certain Entities (Including Entities With Trade
    Receivables) That Lend to or Finance the Activities of Others, issued by the AICPA's
    Accounting Standards Executive Committee in December 2001.
Inspection 2007-512I                                                                     Page 8
Office of the Inspector General                                Audit Report



         guidelines. Examples of overriding circumstances
         that could influence the Loan Committee might
         be:

         •    The project is a good economic development
              project and TVA funds are essential to
              making the project happen.
         •    The project is strong in at least one of the
              categories of jobs created, capital investment
              leveraged, or power load added but falls short
              of the guidelines in other areas.
         •    Either TVA collateral or the loan guarantor is
              exceptionally strong.
         •    The loan is in a targeted sector or is in a
              geographic location that badly needs an
              economic development project.
         •    The borrower may have a procurement
              contract with TVA.

         Other circumstances could influence the committee’s decision,
         but the reasons listed above are the most common.

For the 10 loans in which the Loan Committee made exceptions, 5 (or
50 percent) were identified as being in default status based on
information provided by ED management. While we noted no specific
trends in the loan files reviewed for those loans identified as being in
default status, the high level of defaults in this group indicates that
approving loans not in compliance with program guidelines may
potentially contribute to defaults.

With regard to the 13 noncompliant loans we identified, ED
management deemed that the number of noncompliant loans should
be 12 rather than 13. Specifically, they deemed one loan to be
compliant because ED management decided in the late 1990s, based
on advice from the OGC, to lend directly to companies without
requiring a third-party “cooperator.”

OTHER OPPORTUNITIES FOR IMPROVEMENT
After reviewing the draft Loan Manual, ED management requested
that we provide them with any suggestions and/or observations. We
identified potential areas for improvement which included:




Inspection 2007-512I                                                Page 9
Office of the Inspector General                                Audit Report


1. For the various types of loans, the Loan Manual states:
   “Exceptions to the criteria will be determined by the Loan
   Committee and will be based on positive economic development
   impact to the local or regional economy.”

    ED should require the reasoning and any financial justifications for
    exceptions to loan guidelines be documented. The Loan Manual
    could be used to indicate what documentation is required for
    exceptions and where the documentation is to be maintained.

2. Section IV.F. states: “The present value of the five- and ten-year
   revenue streams are important considerations in determining the
   loan interest rate.” However, there does not appear to be any
   requirement that this analysis be documented.

    With regards to our observation, ED management noted that these
    are documented in the form of an Excel worksheet which is
    uploaded into DealStream. Various interest rate scenarios may be
    inserted into the model to see the impact of the interest rate on the
    projected revenue stream. However, we believe the Loan Manual
    could be used to indicate what documentation is required and
    where the documentation is to be maintained.

3. Section V.G. states: “TVA uses Credit Risk Modeling (CRM)
   contained in Moody’s Financial Analyst to aid in determining the
   credit worthiness of the borrower.” However, there are no
   documented criteria identifying what risk scores and/or bond
   equivalent ratings are acceptable. In addition, this section does
   not require documentation of this evaluation or its results.
    With regards to this observation, ED management stated that
    financial spreads, ratios, risk scores, etc., are uploaded into
    DealStream. With participations, they also typically receive the
    bank officer’s analysis, which is also uploaded into DealStream.

    We suggest that the Loan Manual document criteria indicating
    which risk ratings and bond equivalent ratings are acceptable and
    those that are not. In addition, we believe the loan manual could
    also indicate where the documentation of the analysis of credit
    worthiness and reasons for decisions made are to be maintained.

4. Under section XI., Business Incubator Tenant Loan Fund, there is
   nothing requiring that the incubator manager making the loan
   decision be independent of tenant businesses prior to making loan
   decisions.




Inspection 2007-512I                                              Page 10
Office of the Inspector General                               Audit Report



    ED management should modify Incubator program requirements to
    include that the incubator manager certify that he/she has no
    financial or other interest in the tenants of the incubator.

    ED management agreed with this suggestion.

5. In general, the proposed Loan Manual does not require
   documentation of loan decisions or approvals be documented or
   that information used to make decisions be documented. For
   example, in our review of selected loan files, we noted loan interest
   rates changed with no documentation of the reason for the change
   or approval of the change in the loan file.

    In response to this observation, ED management noted that
    decisions and recommendations have always been documented
    through the Loan Committee minutes, but the Loan Manual did not
    reflect that so an addition will be made. They also stated that they
    would add to the Loan Manual that minutes will document reasons
    for loans approved that vary from guidelines.

We suggest the Loan Manual require documentation of decisions in all
other instances not specifically referenced above.

RECOMMENDATIONS
We recommended the Executive Vice President, Customer
Resources:

•   Complete the development and implementation of ED loan process
    procedures, as agreed upon in response to a previous audit.
•   Ensure compliance with ED loan guidelines, or require that any
    deviations/ acceptances and supporting documentation,
    justifications, analyses, and approvals be documented and
    maintained in the loan files.
•   In cooperation with the Controller and OGC, ensure that ED loans
    identified as uncollectible are submitted for write-off in a timely
    manner.
•   Consider our suggestions for incorporation into the Loan Manual.




Inspection 2007-512I                                              Page 11
